<html>
<title> - REVIEW OF THE FY 2021 BUDGET AND FY 2022 ADVANCE APPROPRIATIONS REQUEST AND OVERSIGHT OF CARES ACT SUPPLEMENTAL APPROPRIATIONS FOR THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 116-445]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-445

                  REVIEW OF THE FY 2021 BUDGET AND FY
                  2022 ADVANCE APPROPRIATIONS REQUEST
                       AND OVERSIGHT OF CARES ACT
                    SUPPLEMENTAL APPROPRIATIONS FOR
                   THE DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2020

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-629 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                     Jerry Moran, Kansas, Chairman

John Boozman, Arkansas               Jon Tester, Montana, Ranking 
Bill Cassidy, Louisiana                  Member
Mike Rounds, South Dakota            Patty Murray, Washington
Thom Tillis, North Carolina          Bernard Sanders, (I) Vermont
Dan Sullivan, Alaska                 Sherrod Brown, Ohio
Marsha Blackburn, Tennessee          Richard Blumenthal, Connecticut
Kevin Cramer, North Dakota           Mazie K. Hirono, Hawaii
Kelly Loeffler, Georgia              Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona

            Caroline R. Canfield, Republican Staff Director
                Tony McClain, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              

                              JUNE 3, 2020

                                SENATORS

                                                                   Page
Moran, Hon. Jerry, Chairman, U.S. Senator from Kansas............     1
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     3
Boozman, Hon. John, U.S. Senator from Arkansas...................    11
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    13
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    15
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    17
Rounds, Hon. Mike, U.S. Senator from South Dakota................    20
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    21
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    23
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    25
Sinema, Hon. Kyrsten, U.S. Senator from Arizona..................    29

                               WITNESSES

Wilkie, Hon. Robert, Secretary of Veterans Affairs; Accompanied 
  by Richard Stone, MD, Executive in Charge of the Veterans 
  Health Administration; Paul Lawrence, PhD, Under Secretary for 
  Benefits; and Jon Rychalski, Assistant Secretary for Management 
  and Chief Financial Officer....................................     5

                                APPENDIX

Moran, Hon. Jerry, Chairman, U.S. Senator from Kansas, prepared 
  statement......................................................    36
Wilkie, Hon. Robert, Secretary of Veterans Affairs, prepared 
  statement......................................................    38
Joint Statement of the Co-authors of the Independent Budget: 
  Disabled American Veterans Paralyzed Veterans of America 
  Veterans of Foreign Wars.......................................    58

Response to hearing questions from Department of Veterans Affairs
submitted by:
  Hon. Jerry Moran...............................................    71
    Attached PDFs................................................   167
  Hon. Jon Tester................................................    91
    Attached PDFs................................................   191
  Hon. Sherrod Brown.............................................   113
    Attached PDFs................................................   242
  Hon. Richard Blumenthal........................................   123
  Hon. Mazie K. Hirono...........................................   133
  Hon. Joe Manchin III...........................................   144
  Hon. Kyrsten Sinema............................................   146
  Hon. Mike Rounds...............................................   158
  Hon. Dan Sullivan..............................................   158
    Attached PDFs................................................   246
  Hon. Marsha Blackburn..........................................   160
  Hon. Kevin Cramer..............................................   164

 
                  REVIEW OF THE FY 2021 BUDGET AND FY
                  2022 ADVANCE APPROPRIATIONS REQUEST
                       AND OVERSIGHT OF CARES ACT
                    SUPPLEMENTAL APPROPRIATIONS FOR
                   THE DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                        WEDNESDAY, JUNE 3, 2020

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:12 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Jerry Moran 
presiding.
    Present: Senators Moran, Boozman, Cassidy, Rounds, Tillis, 
Sullivan, Loeffler, Tester, Brown, Blumenthal, Hirono, Manchin, 
and Sinema.

              OPENING STATEMENT OF CHAIRMAN MORAN

    Chairman Moran. Good afternoon everyone. The Committee will 
come to order.
    Before we proceed to today's hearing, I would like to take 
a moment to recognize that last Monday was Memorial Day. It was 
a different Memorial Day for me and for other Americans than 
normal, and it was more difficult for us to gather together. 
But last Monday gave us an opportunity that we should take 
every day, to pause and remember the brave Americans who gave 
their lives in defense of our country, and we honor the 
sacrifices they made to keep us free.
    While--let me start by saying that the veterans that we 
honored on Memorial Day, they served our country, and that 
peaceful protests are a demonstration of the freedom that our 
veterans served to safeguard and to protect. While we reject 
the defacing of our national monuments, I would take another 
moment to express my gratitude to the National Park Service, 
its employees and volunteers, who quickly restored our 
memorials, all of them, but especially those that recognize the 
service of our men and women, particularly the World War II 
memorial.
    I know that this Committee will continue to further our 
Nation's pledge--one nation under God, indivisible, with 
liberty for all. We do that by honoring those who served to 
make certain we live in that country and we, again, use this 
Committee as an opportunity to pay our regards and respect to 
veterans who lost their lives to protect our freedoms.
    Today's hearing is on the VA's Fiscal Year 2021 budget 
request and the supplemental appropriations contained in the 
CARES Act to respond to the COVID-19 outbreak. We welcome 
Secretary Wilkie as well as Dr. Richard Stone, Executive in 
Charge of the Veterans Health Administration; Dr. Paul 
Lawrence, Under Secretary for Benefits; and Jon Rychalski, 
Assistant Secretary for Management and Chief Financial Officer.
    I appreciate your presence here today and we certainly have 
done our job to socially distance. Mr. Secretary, despite the 
distance between you and me and your team, there is nothing 
other than COVID-19 that causes that to occur, and I look 
forward to continuing to work closely with you at every 
opportunity.
    I look forward to discussing with you all today how we can 
work together to improve outcomes for veterans in our country.
    I would also like to acknowledge the passing of veterans 
and VA personnel who lost their lives due to COVID-19. Part of 
our discussion today is to make certain the VA has every tool 
it needs to minimize the loss of life during these 
unprecedented times, and I also want to thank the VA nurses, 
our doctors, and support staff who work tirelessly to deliver 
care to veterans during the COVID-19 pandemic.
    In addition to serving veterans, the VA has executed its 
fourth mission, to support the American health care system 
struggling during this national emergency. This response from 
these health care professionals has been and continues to be 
admirable and important and necessary.
    While the VA continues to devote resources to suppress the 
pandemic, veterans will continue to rely on the VA for their 
needs, such as education, home financing, and transition 
services. To this end, the pursuit of the well-being of our 
Nation's veterans must continue unabated.
    Between the release of this budget and today's hearing, 
Congress passed legislation to support Federal agencies 
responding to the pandemic. Following a supplemental 
appropriation request from the President, Congress passed the 
CARES Act, signed into law on March the 27th. CARES provides 
$19.6 billion for medical services, including telehealth 
services, equipment, and supplies, personal protective 
equipment, and emergency room and urgent care. CARES also sets 
aside $2.2 billion for IT, in order to increase telework 
capacity and other telehealth needs.
    I am interested to learn how the COVID-19 emergency has 
affected the VA health services and its budget. 
Retrospectively, did the CARES Act appropriately fund the right 
places, and prospectively, given the shifting health care 
demands, does the President's Fiscal Year 2021 budget still 
address VHA's projected needs?
    Released before the COVID-19 emergency, the President's 
Fiscal Year 2021 budget request includes a proposed increase of 
$22.8 billion in funding for the VA for a total of $243.4 
billion. This represents a 10.2 percent increase above Fiscal 
Year 2020 enacted levels. I look forward to hearing from you 
how the proposed budgetary increase will create better outcomes 
for our Nation's veterans.
    I was pleased to see the budget request includes an 
increase for medical community care as the VA continues to 
implement the MISSION Act. As we have discussed, many veterans, 
especially those in rural States like Kansas, depend upon 
community care providers for access to timely and quality care.
    The MISSION Act was a bipartisan effort to transform 
veterans' access to community care, it is strongly supported by 
every veteran service organization, and you have been a 
champion, Mr. Secretary, to ensure its proper implementation. 
We all want veterans to receive the care they need through the 
VA or in their community, and I look forward to discussing the 
future of the MISSION Act today.
    Addressing another of the Committee's health priorities, I 
appreciate the additional requested funding for mental health 
and for suicide prevention. Mr. Secretary, I know you share our 
priority. In January, this Committee unanimously reported the 
Commander John Scott Hannon Veterans Mental Health Care 
Improvement Act to provid targeted resources toward research, 
grants for community partners, and improved coordination 
between the Department of Defense and the VA to quell the rates 
of veterans who die by suicide. It is my hope that you will 
continue working with us to get this bill signed into law soon.
    Mr. Secretary, as always, I thank you for being here. I 
appreciate the difficulty of your job as the Administration 
works to find a whole government solution to the pandemic. I 
look forward to hearing your views on the Fiscal Year budget, 
and I now turn to my colleague and the Ranking Member of this 
Committee, the Senator from Montana, Senator Tester, for his 
opening remarks.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Chairman Moran, I want to thank 
you for having this hearing. Before I get into my prepared 
Statement, I want to say 10 days ago was Memorial Day, and it 
was a different Memorial Day than I have ever experienced. It 
gave me an opportunity to think about everything that veterans 
have given us in this country--the freedom and the promise to 
live with liberty and justice for all. I think it is 
appropriate that as we have all said, every day is Veterans Day 
in this country, because, quite frankly, without the 
sacrifices, without the job that our military has done over 
generations, this country would certainly be a different 
country than it is today.
    I hope with all my heart, that we keep in our mind that 
this country is about liberty, and it is about justice, and it 
is about liberty and justice for all.
    So thank you to the veterans out there, and, Secretary 
Wilkie, I want to thank you and I want to thank your leadership 
team for being at the hearing today. Today we get to go over 
the details of the President's budget request. In the last 4 
months, the world has changed, and the VA has changed. More 
than 106,000 Americans have died, many of them veterans who 
have returned from wars abroad to die fighting a very different 
battle here at home.
    The VA is our largest integrated health care system in the 
Nation, and I know the VA has been focused on saving as many 
veterans' lives as possible, with more than 12,000 veterans 
having been diagnosed with COVID-19 by the VA. While many are 
recovering or convalescing, we should never forget that more 
than 1,270 have died.
    As part of this mission, VA has also taken care of non-
veterans and has deployed staff and supplies to non-VA 
facilities like State veterans' nursing homes.
    VA's front-line workers and their work force have done an 
incredible job and deserve more than just a thank-you, because 
that is not enough for the work that they have done. It has 
been stellar. We must ensure that the VA has everything it 
needs to keep the employees that we have safe and take care of 
our veterans in the process.
    Today's hearing is an opportunity for us to take stock of 
where we are and where we need to be. Mr. Secretary, at the 
outset of the Nation's response to COVID-19, Congress fulfilled 
VA's request for nearly $20 billion to support its ability to 
take care of veterans. We do need a better understanding of how 
VA has spent those funds and whether unspent dollars will be 
available to address veterans' needs, whether it be COVID-19 or 
otherwise, in this next fiscal year.
    We also need to ensure that the President's budget request 
for VA in-house care meets the anticipated health care demands 
of veterans when looked through the lens of the coronavirus. We 
also need to know whether private sector providers are prepared 
to safely administer care to veterans, given the virus' 
unprecedented effect on American health care. We must 
anticipate the economic ripple effects of coronavirus on 
industries across the board, prepare for a potential increase 
in enrollment and reliance on VA, and evaluate whether the 
President's budget meets those demands.
    We have seen the devastating physical effects that 
coronavirus has had on those who have contracted the disease, 
but I think we have also seen large-scale negative 
psychological impacts such as physical distancing and 
isolation, the death of loved ones and lack of access to 
traditional in-person mental health resources.
    The VA needs to look to new and innovative approaches to 
providing mental health care to veterans across the country, 
such as increased access to telehealth services. As we have 
seen with this COVID-19 crisis, VA facilities need more space 
and certainly not less. We need capacity, and we will not get 
there by short-changing VA's infrastructure.
    With veteran unemployment on the rise, it is also critical 
that the VA communicate what programs we need to support in 
order to get veterans educated, trained, back to work, and able 
to provide for their families. One way we help veterans provide 
for themselves and their families is to ensure their claims are 
processed timely and accurately. I am truly concerned with the 
mounting backlog of claims from the COVID-19 pandemic due to 
deferred and disrupted in-person examinations for veterans, and 
with how these delays will affect them and their families.
    So I look forward to today's hearing, and learn more about 
how this budget request and the Department's response to COVID-
19 has progressed, and I look forward to our conversation. Once 
again, thank you, Mr. Chairman, for having this hearing, and I 
want to thank all the witnesses for being here today.
    Chairman Moran. Senator Tester, thank you for joining us. I 
appreciate the relationship that you and I have, whether we are 
close or far apart. Maybe sometimes this works better for us. 
But I am delighted that you are with us.
    I would tell the Secretary and his team that we have almost 
every member of the Committee present, either here, in person, 
or remotely. This is a hearing that our Committee members take 
seriously, and they are participating. While I am pleased that 
all of our members are here, I also want to acknowledge the 
presence of Senator Boozman, who chairs the MilCon-VA 
Appropriations Subcommittee, who has a lot of interest and 
involvement in your appropriations. So Senator Boozman, thank 
you especially for joining us with your expertise and interest.
    Mr. Secretary, before I introduce you I would say not only 
thank you for being here but you have been very kind with your 
time to Senator Tester and I throughout the pandemic. I could 
not ask for more opportunities to have conversations with you 
and your team, Dr. Stone and others, and that was very helpful 
as we explored, and hopefully made suggestions and asked 
questions that were beneficial to you in fulfilling your duties 
during this pandemic.
    Mr. Secretary, welcome, and please proceed with your 
testimony.

   STATEMENT OF THE HONORABLE ROBERT WILKIE; ACCOMPANIED BY 
        RICHARD STONE; PAUL LAWRENCE; AND JON RYCHALSKI

    Secretary Wilkie. Thank you, Mr. Chairman and Senator 
Tester. You stole the first line. I intended to say, and 
actually I will say, that in my experience working in this 
institution, everywhere from the majority leader's office to 
finishing with Senator Tillis, that I can say that there is no 
committee of authorization that has been more collaborative or 
more supportive of the Department that it oversees than this 
Committee, which is why I do say, with a straight face, it is a 
pleasure for me to be here.
    I also want to pick up on what you and Senator Tester said 
about the events of Memorial Day. Memorial Day has been part of 
my life for as long as I can remember. As Senator Tillis says, 
I was born in khaki diapers and am very proud of it. But this 
Memorial Day I looked out from the podium at the Quantico 
National Cemetery and saw three families scattered amongst the 
thousands of veterans at that cemetery and realized that this 
really was a different time.
    But I will say that we have, at VA, made sure that every 
obstacle possible was removed, so that on that day of days, 
those families could be in our cemetery, representing the 1.1 
million Americans who have lost their lives since the first 
shots were fired at Lexington in April of 1775.
    Mr. Chairman, you noted that last year we presented the 
largest budget in the history of this Department. That has now 
been surpassed by the budget presented to this Committee this 
year. But I want to say that your support in that budget 
reflects trust in VA that did not exist 6 years ago. This is 
not the VA you read about in 2014. Today we are rededicated to 
Lincoln's vision that we take care of all who have borne the 
battle and for their families.
    Our record of turnaround is something that may be 
unprecedented in the history of the Federal Government. In just 
a few short years we have implemented major reforms. Under the 
MISSION Act we have successfully given veterans real and 
permanent choice. While some said that the MISSION Act meant 
the privatization of Veterans Affairs, the numbers show that 
the opposite has happened.
    In the last fiscal year, we completed more than 59.9 
million internal episodes of care, a record high. While we were 
doing that, between June 6th and the declaration of the 
national emergency, we sent almost 4 million veterans into the 
private sector to fulfill the MISSION Act's mandate. We 
implemented critical updates to the Colmery Bill, we took on 
the new task of caring for thousands of Blue Water Navy 
veterans, and we continue to make progress in the highly 
complicated development of the electronic health care record 
that we will share with the Department of Defense so that 
people like my father will never be burdened with an 800-page 
paper record ever again.
    Today we continue to implement those reforms even as we 
cope with, as you and Senator Tester said, a radically new 
normal that none of us could have foreseen the last time I 
appeared before this Committee. This epidemic was a shock to 
health care systems around the planet, but you should be proud, 
as I am, the thousands of VA employees who put themselves in 
harm's way to create an indispensable resource, not only for 
our veterans but for our Nation.
    We continue to perform well because we took steps early on 
that allowed us to keep serving veterans even when there was so 
much uncertainty. Those steps included the immediate 
implementation of emergency management procedures in the last 
week of January, expanding telehealth access and prohibiting 
visitors to our VA nursing homes and spinal cord injury 
centers.
    Here is where we stand today. As of this week, more than 
12,000 veterans nationwide have been diagnosed with the virus, 
but 80 percent of those veterans are now at home, having 
recovered. We are caring, as we speak, for 1,200 veterans with 
the virus, a number that has fallen in the last 2 weeks from 
2,200. We have, currently, about 1,100 VA employees who have 
tested positive, but we estimate that our infection rate, with 
330,000 employees in Dr. Stone's department, to be one of the 
lowest infection rates of any health organization on the 
planet. It is less than .5 of 1 percent.
    Our staffing is stable because we have hired, in the last 7 
weeks, 16,000 Americans who have agreed to join us and serve 
veterans. That means 3,300 registered nurses, 22 CRNAs, 535 
physicians, and 202 nurse practitioners who are with us now 
full-time.
    More importantly, we have the lowest rate of infection 
amongst our nursing home residents, the lowest rate of 
infection of any system in the country, because early on we 
took very difficult steps to close off our veterans, sadly, 
from their families and their friends. Because of that we have 
19 veterans in our nursing homes, 19 out of the 7,000, who are 
infected with the virus. I believe that we have set an example 
on how to care for our Nation's most vulnerable.
    That stability in operations has allowed us to open our 
doors for the fourth mission, which is to back up the national 
health care system in times of crisis. We are now in 47 States 
and territories. By April, we were accepting requests to open 
dozens of our hospitals to non-veterans across the country. Our 
expertise in caring for nursing home residents is in the 
highest demand. We have deployed 294 VA staff to community 
nursing homes around America, and 330 VA staff have been 
deployed to help at State veterans' homes.
    The crisis, as I mentioned, was not costless for us. COVID 
has claimed the lives of 32 of our VA families. But in April, 
April brought us irrefutable evidence that the tide at VA has 
turned for the better. On the last day of the month we released 
a survey showing that a record 90 percent of veterans across 
the country now completely trust VA care. That is a record high 
and is a record high even in a pandemic.
    That is today's VA. It is a learning organization, filled 
with employees who can turn on a dime to keep veterans and non-
veterans safe, even during this time of incredible uncertainty.
    Mr. Chairman and Senator Tester, I again thank you for your 
many courtesies to me and everything you do for our Nation's 
most deserving.
    Chairman Moran. Mr. Secretary, thank you very much. Let me 
begin with a handful of questions and then turn to Senator 
Tester. Committee, we will do this seniority, not knowing the 
presence of every member at the moment. We will work our way, 
alternating between Republicans and Democrats by seniority.
    Mr. Secretary, can you walk us through why we are seeing a 
steady growth and increasing funding in both internal VA 
medical services and community care? Let me use this 
opportunity to say that I believe that whether the care is 
provided in the community or provided internal to the VA, both 
are VA care. They are both part of the Department of Veterans 
Affairs and they are not separated.
    You indicated the hiring of 10,000 medical staff. This, in 
my mind, could lead toward a greater capability of seeing more 
people internally within the VA, and maybe result in less 
people involved in community care.
    You have also indicated, to me and Senator Tester over a 
long period of time, the increasing use of telehealth. How does 
that then have a consequence on the amount of veterans being 
seen internal and in community? I mean, I raise this question, 
in part, because we are being requested in this budget for more 
money in both categories, internal VA care and community care.
    Secretary Wilkie. Mr. Chairman, let me answer the 
telehealth question first, and I think that is a separate 
category because it rests on a priority that I gave to this 
Committee when I had my confirmation hearing.
    The two communities in this country who serve the Nation in 
higher numbers than any other communities are rural Americans 
and Native Americans, the two populations that are the hardest 
for us to reach, no matter what the MISSION Act does. But what 
we have done with telehealth is increase our footprint in rural 
and Native America.
    I will give you an example. In April, we had over 900,000 
telehealth encounters. That is an increase of several hundred 
percent. The reason that is important is at a time of crisis, 
when those veterans cannot get to our facilities, or they 
cannot get to their private sector provider, we have offered 
them a window to help with their health conditions. I intend to 
expand our footprint through telehealth into rural and Native 
America.
    On the community care side, I am fully committed to 
expanding that choice. Even during this time, 60 percent of our 
normal MISSION Act community care appointments have been 
carried out. The one thing that we have discovered during this 
crisis is that many of our veterans are not going into the 
private sector, and you have seen that all across the country 
with declining rates not only of wellness visits but visits to 
the emergency rooms.
    That has been the makeup of how we have reacted both to the 
expansion of MISSION but also the expansion in the confidence 
that people have in VA. I will let Dr. Stone add some comments 
about the numbers and budget.
    Dr. Stone. Mr. Chairman, the growth in the budget reflects 
enhanced enrollment--we are anticipating about 30,000 more 
veterans to be enrolled with us--and enhanced dependence upon 
the system. As you know, about 80 percent of the veterans that 
are enrolled with us have other health insurance. They do not 
get all of their care from us. About 20 percent do get all of 
their care. But increasing amounts of dependence upon us, as 
well as the growth in referral to community care.
    A small percentage of the increase is due to MISSION Act 
and the increased requirements of probably not more than 2, 2.5 
percent, but Jon will correct me if I am wrong on that number. 
But it is really dependence upon us and the enrollment. As we 
come out of this pandemic, we certainly are concerned that 
financial destabilization of the veteran population may result 
in even greater dependence upon us, and I will defer to Mr. 
Rychalski to correct anything I said.
    Chairman Moran. Mr. Rychalski?
    Mr. Rychalski. I have no corrections. I would say that from 
the enrollee health care projection model that we use to 
predict costs, I think the big cost driver is the reliance that 
Dr. Stone mentioned. I think more people are taking advantage 
of the VA. So we are a victim of our own success. I think there 
are more programs, more benefits, more access, different 
environment, and frankly people are coming and taking advantage 
of it.
    Chairman Moran. Is there a way to distinguish between 
increasing number of veterans accessing care and the cost of 
care in your calculations of a budget?
    Mr. Rychalski. There is. It gets very complicated. As you, 
I think, know, and Dr. Stone alluded to, I belong to a 
commercial health care plan and they sort of know that I am 
going to use their health care plan for all of my health care. 
The challenge that we have is, you know, we have beneficiaries 
that have all kinds of Medicare, TRICARE, private insurance, 
and the challenge for us is predicting how much of the VA they 
are going to use. You know, we may see an increase in VA 
because of this, you know, this COVID pandemic, people losing 
their job, and that is something that we are looking at very 
closely. But predicting that and sort of knowing is a very 
difficult thing to sort through.
    Chairman Moran. Thank you all for your responses. Let me 
turn now to Senator Tester.
    Senator Tester. Thank you. Thank you, Mr. Chairman. I want 
to thank everybody who has testified. Look, you guys touched on 
it, and I am going to followup where the Chairman was at. This 
budget was developed long before we knew there was going to be 
a pandemic, and, quite frankly, it is a boatload of money, it 
needs to be right-sized. It does not need to be overly 
inflated, and it certainly should not be less than you need.
    Each one of you talked a second ago about an April increase 
in the hundreds of percents. You talked about the fact that 80 
percent of the folks have health care insurance. I think with 
unemployment increasing--and you guys talked about this--you 
are going to see increased dependence upon the VA. We have seen 
Medicaid enrollment, for example, increase by 2.8 percent 
February to April, and it is going to increase some more moving 
forward.
    So I think we can anticipate there is going to be more 
pressure put on the VA, and I think we all can agree on that. I 
think you have already said that. The question is, does this 
budget account for that, since it was laid out long before we 
had the COVID-19 pandemic on our hands.
    Secretary Wilkie. Senator, let me--Senator--and Jon can 
give more details--the one silver lining in what has happened 
is that when I first started talking to you and talking to the 
Chairman, we were projecting hundreds of thousands of veterans 
being infected with this virus. We have mercifully been spared 
those numbers. Of the 9.5 million veterans we serve, 12,300 
have been infected.
    What does that mean for the CARES Act and the supplemental 
funding? That means of the $17.2 billion that the appropriators 
allocated to us for the CARES Act, we have spent $1.01 billion 
on medical services. Right now we have more than enough to 
anticipate the problems that you have just outlined.
    Our problems and our emphasis will be on making sure that 
the claims and that the education programs and the vocational 
programs are fully up and running so that when we get back to 
those face-to-face encounters we will be able to provide those 
veterans with the services they need.
    In terms of internal appointments, I do not see it going up 
much more than it has, because we have reached almost a 
saturation point in terms of the number of veterans that we 
have in the system, and the number of veterans across the 
country is going down.
    Jon, did you want to----
    Mr. Rychalski. I am sorry. Go ahead, Senator Tester.
    Senator Tester. Well, I would just say go ahead, very 
quickly, Jon, if you could, because I have some followups.
    Mr. Rychalski. Just to confirm what the Secretary said. You 
know, we did not anticipate this in the budget but we have a 
lot of flexibility.
    The one thing I would like to emphasize, though, where we 
could really use some help, is we did not get all the right 
money in all the right places. We do have a real need to move 
some of that CARES money into VBA--not a large amount--some 
into NCA, and some flexibility for IT as well. Those are three 
areas where we are going to be short. Other than that, I think 
we have adequate flexibility. I think the 2021 budget is 
adequate, but we did not know this when we started. It is not 
all in the right places but it is not bad.
    Senator Tester. So it is your intent that--and this is the 
question I was going to ask you, and you touched on it, Jon--if 
your intent is to get authorization to roll any unused CARES 
Act money into different line items, where you would need money 
in this budget?
    Mr. Rychalski. Yes. In fact, you have given us authority to 
move some money around within the medical care appropriation, 
but we would ask for your support in expanding that a bit 
with--you know, with congressional oversight, to be able to 
move it to some other areas. I think we are providing weekly 
execution reports. We are happy to be 100 percent transparent. 
But we are going to need to move some of that money around to 
other areas. That is true.
    Senator Tester. That is fine. That is good. That 
transparency is good, and I want to thank you for that 
Statement.
    So First of all, congratulations. I understand that there 
have been 16,000 new people hired to the VA in April and May, 
and if I am wrong you can correct me on that. So 
congratulations on that. The question is, are these folks in it 
for the long haul, or are these folks that have retired and 
came back, that you plan on losing again, or is this really 
something that we can get our arms around to help solve that 
vacancy problem?
    Secretary Wilkie. Yes, sir. I believe 90 percent are 
permanent, and that is one of the best news stories that we can 
have in government.
    Senator Tester, I want to followup on something you and I 
have talked about, and the reason I believe that this funding, 
the supplemental funding, is so important. I am cognizant that 
this will boomerang, or can boomerang on us in the fall and the 
winter. I think the supplemental funding that the Congress has 
provided us will be our hedge against what could possibly come. 
We have demonstrated, I think, that we have the procedures in 
place to ensure that if it does come back we will be ready, and 
I believe we have the funding to meet that challenge.
    Senator Tester. I appreciate that Statement, Mr. Secretary. 
Thank you for that. I also say that I do not know what happened 
in April and May. This is not to what you touched on, but what 
you said is incredibly important, because if this does 
boomerang back you have got to be prepared for it. It sounds 
like you are working in that direction. Thank you.
    Whatever you did in April and May, to hire 16,000 people, 
can you repeat that in June and July? If you do that for a few 
more quarters we will be in really good shape----
    Secretary Wilkie. Yes, sir.
    Senator Tester [continuing]. from an employment standpoint.
    Secretary Wilkie. Yes, sir.
    Senator Tester. The last thing, and I will be very quick 
because if my eyeballs do not deceive me I have got about 50 
seconds left. The issues around testing are really important, 
and you have said that any employee that wants to get tested 
can get tested. We are not hearing that. We are not hearing 
that from the folks on the ground. We are still hearing that 
they are not being tested. Could you shed some light on that as 
to what the heck is going on?
    Secretary Wilkie. Senator, you are exactly right. We are 
not there yet, although we have tested over 12 percent of our 
employees. It is our intent to have on-demand testing for all 
of our employees. We are not there yet. Most of that relates 
not to the machines that we need. We have the ability to do 
60,000 tests a week on our machines. It is the availability of 
cartridges that go into that from the various vendors and the 
availability of swabs.
    Simply, when we issued the guidance to go to on-demand 
testing for our employees, we ran out of swabs in a--because of 
some problems with UPS shipping. That was a national problem 
with the crashing of UPS systems for a weekend. We have now 
recovered from that. Right now we have about 60,000 tests 
available, but we do not have the ability to institute on-
demand testing from our employees, but it is our intent to get 
there.
    Senator Tester. Mr. Secretary, thank you. If I am 3 minutes 
and 20 seconds over, Mr. Chairman, thanks for not gaveling me 
down, but I should have been. Sorry.
    Secretary Wilkie. Mr. Chairman. may I----
    Chairman Moran. Mr. Secretary.
    Secretary Wilkie [continuing]. may I add to that 3 minutes 
and 30 seconds, because Senator Tester just finished, but this 
is also addressed to Senator Sullivan and Senator Rounds, and 
those Senators who have large Native populations.
    We have brought into our VA over 2,000 Native Americans for 
treatment. We have gone into the Native nations, and we are in 
several of those communities, and it is my intention to expand 
our footprint there, some of our most vulnerable veterans but 
also some of our most vulnerable Americans. As Senator Sullivan 
knows, we have 114 individual Tribal agreements, and it is my 
intention to expand that so there is no Tribal community that 
we miss.
    But I did not want to go without mentioning our help for 
the Indian Health Service. Someone criticized me a few days ago 
for not getting payments. I will worry about that much later. 
The most important thing is getting those services and that 
treatment out into Indian country.
    Chairman Moran. Mr. Secretary, thank you. Senator Tester, 4 
minutes and 51 seconds over, if you include the Secretary's 
remarks, and I will try to be more disciplined with my 
colleagues.
    Senator Boozman?

                      SENATOR JOHN BOOZMAN

    Senator Boozman. That is almost twice.
    Chairman Moran. Almost twice.
    Senator Boozman. No, we appreciate you, Senator Moran, Mr. 
Chairman, and Ranking Member Tester for holding this hearing, 
which is so, so very important. We appreciate you, Secretary 
Wilkie, and your team for the great job that you do.
    This is just a comment. I hope that we can continue to give 
you the ability to do the hiring process like you are doing it 
now. I do not know how long it would normally take you to get 
those people on board, but it would be a long, long time. So 
again, we appreciate you all working so hard and using the 
flexibility we have given you.
    The Fiscal Year 2021 VHA veterans' health budget request is 
$90 billion, a $10.8 billion increase from the prior year. If 
you look at 10 years ago, in Fiscal Year 2011, the budget 
request for veterans' health then was $52.1 billion. It is 
really remarkable the growth--to be precise, 73 percent in the 
last 10 years.
    We talked about some of the drivers that were doing that, 
and I would argue, having been on the Committee in the House 
and now in the Senate for many years with our distinguished 
Chairman, veterans health is so much better than it used to be, 
and we have the confidence now. Lots of people using the 
system.
    We also--is it correct that we have an aging veteran 
population in a sense with our World War II, our Korea, Vietnam 
veterans, again, with multiple problems facing, and then the 
increase in health care costs. So it is a lot of money, but it 
is something certainly that we are committed to doing. But the 
good news is I think the thing that is spurring it, as much as 
anything, is just the confidence that we are seeing in our 
veterans in continuing to use veterans health care when they 
could go to Medicare or some other insurance.
    Dr. Lawrence, recently we visited, or the staff visited. 
They were told that the recent suspension of the C&P exams due 
to COVID that were understandably creating a significant 
backlog. We have worked so hard to get that down. Can you talk 
about the plan? What can we do to get that back under control? 
I think what are we, 116,000 exams, something like that? Is 
that in the ballpark?
    Mr. Lawrence. Yes, you are being charitable. This morning 
it was 119,000. You are correct, sir. On April 2d, when VHA 
stopped doing C&P exams, we follow their lead, so on April 3d 
we told our vendors they could no longer do in-person exams. We 
started conducting ACE exams and using their medical records to 
do things like fulfill their claim or provide partial benefits. 
But you are right. The simple math of what took place, and, you 
know, you all deserve some positive responsibility for that. 
Through the Blue Water Navy Act, we began to receive a lot of 
claims in January, and now there are over 125 days. So that is 
correct.
    We have a plan to open following VHA's lead, and that would 
begin--they opened 20 hospitals. We are opening in that area 
June 8th. We will startup again C&P exams in certain parts of 
the country, and we will continue that. The vendors know and 
they are making phone calls now to schedule it.
    We are not happy about the backlog. In November it was 
64,000. Our team is very proud of processing claims quickly, so 
we want to get that right away.
    Two things, sir, to answer your question. The first thing 
was what Mr. Rychalski just said about reprogramming some 
money, so we will have overtime money to do the claims. The 
second, we have a piece of legislation, a legislative request 
in front of you, to allow doctors to conduct C&P exams across 
borders, and in addition some flexibility for non-doctors to 
conduct the C&P exams, nurse practitioners and the like. We 
would ask you to consider that, and that would be one way for 
us to expand the capacity to work the C&P backlog--work the C&P 
exams and therefore the backlog.
    Senator Boozman. Very quickly, Secretary Wilkie, the fourth 
mission has been a big success. As a result of that, FEMA, HHS 
owes the VA some money. Can you talk quickly about the plan and 
actually recouping that? What is going on with that? Certainly 
that would be very helpful to us as we work through the budget.
    Secretary Wilkie. Jon might have exact figures, but as you 
know, statutorily, FEMA and HHS have to reimburse us when we go 
on missions that they have approved. One thing that I did, 
though, was I just started calling Governors. We went out ahead 
of many of those missions because particularly in State 
veterans' homes there was a crisis, and FEMA has caught up with 
those requests.
    But I will get you figures on how much we are owed so far, 
unless Jon has new figures.
    Mr. Rychalski. I was just going to say, sir, we are 
tracking it closely. We have worked with FEMA. We have not 
billed them nor collected anything, but we will be doing so. We 
can provide you a breakout of that.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Moran. Senator Brown.

                     SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman and Mr. Secretary. 
Thank you and Ranking Member Tester. Thanks for eating up some 
of my time, Jon. I appreciate that.
    We are here to discuss VA's budget and the Department's 
COVID-19 pandemic responses. Today VA reported 1,200 veterans, 
32 VA employee deaths since the start of the pandemic. Our 
country is in a crisis. People are dying of a disease that 
continues to spread, particularly among seniors, and especially 
among the black and brown workers who are keeping our society 
afloat right now.
    We know who essential workers are. They are too often paid 
too little. One essential worker said to me, ``I do not feel 
essential. I feel expandable. I am not paid very well. My work 
conditions are not very good,'' and that is something that all 
of us on this Committee should think about, especially when 
they are veterans.
    Protesters are in the street now because their government 
is failing them. It is failing to protect our workers. Not only 
has it failed to protect black and brown American workers, for 
generations of people who are supposed to protect everyone it 
has too often been turned against them.
    Peaceful protesters should not be tear-gassed or pelted 
with rubber bullets so the President can exploit a house of 
worship, to stage a photo op. They are not terrorists. American 
cities are not battle spaces. I know that the great majority of 
veterans, I assume the great majority of VA workers agree with 
that, and they too are embarrassed when the President disbands 
peaceful protestors and then brandishes a Bible as a weapon.
    On this Committee we honor those who have chosen a life of 
service. Nothing is more patriotic than upholding the 
Constitution and exercising our fundamental rights. We need to 
continue working together to address injustice and inequality 
to ensure that all Americans are treated fairly.
    I have directly heard from student veterans about how this 
pandemic has affected their GI Bill benefits. Congress worked 
to provide relief. I am still concerned that the information 
from VBA is not reaching all the colleges and universities in a 
clear format. I urge the Secretary and the staff to work a 
little harder on that. We need to make sure work-study students 
still are paid or that when classes are only offered online, GI 
Bill benefits continue as if classes were in person. Even after 
we passed legislation to address these issues, my office has 
heard from veterans in schools.
    My First question, Dr. Lawrence. Would you commit to work 
with my staff, with Anna and Drew on my staff, if we hear of 
additional concerns about this?
    Mr. Lawrence. Absolutely.
    Senator Brown. Okay. Thank you. I figured you would say 
yes, and you have always been cooperative. Thank you.
    Mr. Secretary, I appreciate Senator Tester asking about 
vacancies. I had the same question. We need to continue to 
drive down the time it takes to hire medical professionals at 
VA. Can you commit to retain the expedited hiring practices 
that you have ably scaled up during the crisis?
    Secretary Wilkie. Oh, absolutely, and if I need additional 
authorities I will come to this Committee. I think we have 
shown, Senator Brown, that the government can work, and we have 
cut months, almost years off of the hiring process.
    One quick thing. One of the incentives that we gave is that 
we told people if you joined us you can stay in your hometown 
or in your home State should you so desire. I think that is a 
huge incentive.
    Senator Brown. That is very important. I wanted to take 
this opportunity to urge you to find a way to negotiate in good 
faith with the VA unions. I and veterans know they get better 
care, and employees know their concerns are addressed where 
union representation is at the table. We know that workers are 
more productive and they are better treated.
    Dr. Stone, Dr. Lawrence, have you reviewed the white paper 
released by the National Veterans Legal Services Program and 
the Jerome Frank Legal Service Organization at Yale Law School. 
Veterans who were stationed in Guam for a decade in the 1960's 
and 1970's were likely exposed to dioxin-containing herbicide 
agents, including Agent Orange. Have you looked at that paper 
and do you agree with the assessment? For Dr. Stone and Dr. 
Lawrence.
    Mr. Lawrence. Sir, let me go first. Yes, sir. We reviewed 
the paper and I believe we responded to a letter to you all 
about, you know, the inability of us to find the use of the 
dioxin in that area. I know it was a very complicated paper 
that required analysis from our team. I am happy to discuss it 
more with you, but yes, it has been reviewed.
    Senator Brown. Okay, thank you. Dr. Stone, do you want to 
add anything?
    Dr. Stone. Sir, I have reviewed the paper and I agree with 
Dr. Lawrence. It is very complex in its process and we look 
forward to coming to resolution on it.
    Senator Brown. Okay. It is important that the VA always 
stand--as you know, always stand with veterans and Agent 
Orange. We are sometimes slow to that. With burn pits and now 
with this study it is important always that we come down on the 
side of veterans.
    Last comment, Secretary Wilkie and Dr. Stone. The VA has 
made a major shift toward telehealth to decrease possible 
spread of COVID-19. When we passed the CARES Act we included 
specific funding to increase veterans' access to internet and 
telehealth. Some areas of Ohio are rural. Many of the Senators 
on this Committee have even more rural areas than I do. They do 
not have great access to broadband. This is especially 
important as veterans rely more heavily on telehealth for the 
foreseeable future.
    I hope you will share--my time is up, but please share with 
the Committee at some point what steps VA, or with my staff, 
what steps VA has taken to enter into contracts to expand 
broadband and telehealth services for our veterans.
    Thank you, Mr. Chairman. If you would just--you can answer 
that question in writing, or if you want to take the time now.
    Secretary Wilkie. We will. It is a priority for us, 
particular, as you mentioned, in rural America.
    I did want to say something about your opening comment 
about--I believe you mentioned gender disparities. We are in an 
interesting position at VA. Forty-nine percent of eligible male 
veterans are in our system. I can say to this Committee today 
that 42 percent of all eligible female veterans are now in the 
VA system. Dr. Stone has just hired an assistant, special 
assistant, to monitor those issues, any disparities, and report 
directly to him. I think we are the only health care system in 
the country to monitor gender and racial disparities in terms 
of health care and health care outcomes.
    So we are in the lead, and I think for many of those 
communities the health care outcomes are much better within our 
system than they are in the private sector. So I take your 
point to heart.
    Senator Brown. Thank you, Mr. Secretary. Thank you, 
Chairman Moran.
    Chairman Moran. Senator Cassidy. You are welcome.

                      SENATOR BILL CASSIDY

    Senator Cassidy. Thank you all. Thank you for your good 
service and thank you in New Orleans, which had a lot of COVID. 
You all did a lot of work to kind of mobilize resources. I 
really appreciate that.
    A couple of things. I have heard--again, as a physician I 
get these phone calls from physicians all over the country. Now 
one thing that has been said that in the referral to outside 
specialists for different aspects of care the intensity of the 
care is greater than it would be if it were given in the VA, 
that every test is done that is imaginable, and some of which 
you would not think would be indicated. Maybe you cannot 
establish that they are not, but they ordinarily would not be 
done in a more well-run system.
    We are speaking not just for the VA in general but we are 
also speaking for specific facilities, because you want to have 
a kind of a spectrum of that. Dr. Stone, I think you have been 
flagged for this.
    Dr. Stone. Yes, sir. We authorize standard episodes of care 
in which we define the scope of services to be done. But we do 
find a greater utilization of services out in the commercial 
space than we do----
    Senator Cassidy. Now that assumes, Dr. Stone, just because 
I have limited time, if you do have greater utilization of 
services, either there is an underutilization within the VA or 
an over on the side. Now I will just say, as a doc, if you do 
too much, bad things happen. It is not benign to do something 
which is not indicated. On the other hand, it should be done if 
indicated.
    So do you have a sense of inside versus outside as to the 
relative weight of that?
    Dr. Stone. Yes, and, sir, that is why we designed the 
Community Care Program to be highly integrated with the VA at 
the center and the primary care clinician at the center of 
that, to make decisions in the best interest of the veteran, 
and to work with the veteran for how to proceed. We fine, in 
some very simple areas, like physical therapy, dramatically 
higher uses in the commercial space that is done within VA.
    Senator Cassidy. But begging the question, is it 
appropriate increased intensity, or not?
    Dr. Stone. Not always.
    Senator Cassidy. So is there--I presume then that you all 
are taking measures, because that is one, expensive, but two, 
it is also perhaps contraindicated, which is more important.
    Dr. Stone. We are, and that is the beauty of the health 
information exchange, which allows us to utilize and to 
integrate health care information systems for the veteran so 
that there is not repetitive work being done, and we have full 
visibility.
    Senator Cassidy. Is it possible that you could give this 
Committee a report on a per-institution basis? The Dartmouth 
study suggests that it is regional, or even State, or even 
community located in which you have increased intensity of 
certain services. I think the individual members of the 
Committee would like to know how the VAs in their bailiwick, if 
you will, are responding to this challenge.
    Dr. Stone. We would be happy to work with your staff and 
the Committee staff to really work through that request.
    Senator Cassidy. Let me ask, Mr. Secretary, you mentioned 
the success in hiring new people, but I was recently told it 
can take as long as 6 months for someone to be offered a 
position for them to actually be onboarded and to be seeing 
patients. Any comments on that?
    Secretary Wilkie. Senator, before Dr. Stone answers that, 
as a physician might answer that, we have been able to cut 
through most of the Federal flotsam and jetsam when it comes to 
hiring people. I have shaved off weeks and months out of the 
hiring process. When people apply, that hiring application goes 
straight to the medical center or to the department that would 
be hiring that person. The onboarding is done quickly. So we 
have cut down years, months into weeks, and I do not know that 
anyone right now is experiencing that 6-month delay. Now there 
may be one or two specialties that might, but Dr. Stone can 
answer that.
    Dr. Stone. Sir, it was not uncommon for us to take 6 months 
to bring a clinician on, mainly because of the prime source of 
verification of their education. With the help of Office of 
Personnel Management we have cut that down to 7 days now, that 
if you apply today, in 7 days we will have you at work.
    Senator Cassidy. Really?
    Secretary Wilkie. We have hired almost 600 physicians just 
in the last 6 weeks.
    Senator Cassidy. I have got 36 seconds left. Let me ask you 
a 4-minute question. During the COVID, coronavirus crisis we 
have been using more tele mental health and telehealth 
services. To what degree can we continue to use those tele 
mental health? Have you found them as effective as traditional 
mental health services?
    Secretary Wilkie. We certainly have, and I think this is 
the wave of the future, particularly for mental health. In 
addition to what we have provided, we have now entered into 
agreements with--I will give you an example--Walmart. Senator 
Tillis knows, I cut the ribbon on a Walmart Veterans Health 
Clinic that exists behind the pharmacy wall, where a veteran 
can come in and talk to a mental health provider--this is in 
Asheboro, North Carolina--anywhere in the country.
    This is the wave of the future. It prevents veterans from 
having to experience the pressures of a large clinical setting. 
It takes the pressure off of their families. I expect it to 
grow. I think the one benefit of this epidemic, it has allowed 
us to stress the test.
    I will finish by saying--I am going to make a Louisiana 
comment. My grandmother is watching, in New Orleans. She was 
born in the middle of the Spanish Flu at the early part of the 
20th century. She is still in New Orleans. She survived this 
one. So that tells you the resilience of the Crescent City.
    Senator Cassidy. Thank you. I yield back.
    Chairman Moran. Senator Blumenthal.

                   SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. Thank you, Mr. Chairman. Thank you all 
for being here. Thanks for your service. I saw a report, I 
think this morning, in the Military Times, that the number of 
active COVID-19 cases at VA medical centers nationwide has 
risen by more than 7 percent in the last 5 days. That is a 
pretty alarming turnaround, in contrast----
    Secretary Wilkie. I can answer that. The system--the 
accounting system was down for several days. But overall, 9.5 
million veterans that we serve, we have had 12,300 infections. 
Of those 12,300 infections, we have less than 1,500 active 
infections. I think there is no health care system in the 
country that has been able to keep those numbers down as we 
have. I think we did it because we acted early. We were acting 
in February.
    Senator Blumenthal. My question to you, though, is the 
trend. What has been the trend over the last 5 days? Are you 
saying that the Military Times was in error?
    Secretary Wilkie. I am saying their interpretation was in 
error.
    Senator Blumenthal. Well, you are saying they were in 
error.
    Secretary Wilkie. I said their interpretation was in error.
    Senator Blumenthal. What are the numbers?
    Secretary Wilkie. I gave you the overall numbers.
    Dr. Stone. Sir, if I might add to this, I would ask you, 
Senator, to consider two things, one, the number of cases, and 
second, how many are hospitalized. Our hospitalization numbers 
are stable and are not increasing. I think as we increase 
testing, and we are doing 3,000 to 4,000 tests a day in 
veterans, you are going to get numbers going up. It is just 
like in each of your States, that as you penetrate with----
    Senator Blumenthal. Well, that is an explanation, but the 
numbers are showing an increase. Correct?
    Dr. Stone. The actual number is showing an increase, but 
not in hospitalizations. Hospitalizations----
    Senator Blumenthal. It is an increase in the number of 
active cases. I understand hospitalizations are different from 
active cases.
    Secretary Wilkie. Yes, and most of those cases are at home.
    Senator Blumenthal. At home?
    Secretary Wilkie. Because they do not require----
    Senator Blumenthal. Well, that may be true----
    Secretary Wilkie [continuing]. they do not require----
    Senator Blumenthal [continuing]. I am asking you for 
numbers.
    Secretary Wilkie. Well, I just gave you the numbers.
    Senator Blumenthal. I just want to make sure that I 
understand. The trend is up by around 7 percent of active 
coronavirus cases. The Military Times was correct in that 
report.
    Secretary Wilkie. The trend--Look. The interpretation is 
that there is an explosion.
    Senator Blumenthal. Let me move on to another topic because 
I am limited in terms of time. My understanding is that you 
have spent only--you have obligated only about $2 billion out 
of the $19.6 billion that has been provided under the CARES 
Act. Why so small a percentage of the funding obligated?
    Secretary Wilkie. Well, because mercifully the original 
projections that I discussed with the Chairman and Senator 
Tester of several hundred thousand infections did not play out. 
Those were the projections we were looking at at the beginning 
of this.
    Senator Blumenthal. So you do not need the money?
    Secretary Wilkie. I also mentioned earlier, Senator, that I 
am standing by for a rebound. We do not know what is going to 
happen in the fall and winter.
    Senator Blumenthal. So if that 7 percent trend that I just 
mentioned continues, you might need the money more than you do 
now?
    Secretary Wilkie. Well, I think with the rebound you would 
see people who have had no contact with the virus be 
susceptible to it in the fall and the winter.
    Senator Blumenthal. Let me ask you, with respect to PPE, 
how many--and this is relevant to the potential rebound--how 
many weeks of supplies do you have now in PPE?
    Secretary Wilkie. We have multiple months of supply of PPE.
    Senator Blumenthal. Multiple months?
    Secretary Wilkie. Yes.
    Senator Blumenthal. So you have more than ample personal 
protective equipment.
    Secretary Wilkie. If I can add, the Chairman and I have 
talked, and so has Senator Tester. We are setting up a system 
that is something that you were familiar with in your Marine 
Corps days. The Marine Corps and Navy had supply depots all 
over the country--spare parts, technicians. We are doing that 
with our PPE and our medicines. I think this is our hedge for 
the future, so that we will not be susceptible to a disruption 
in the supply chain. So I have adopted the models that I saw as 
a young naval officer, and we are preparing by stocking up.
    The other thing I would say is that we never fell below 2 
weeks of supplies during this crisis.
    Senator Blumenthal. I have one last question. I have many 
questions. Some I will submit in writing, but one more question 
I want to ask you here. I introduced a bill last year that was 
supposed by 18 veteran service organizations to remove the 1-
year manifestation period for three illnesses linked to Agent 
Orange, and I would like your support for that bill, 50 years 
after the veterans suffered the harms that are still affected.
    Secretary Wilkie. Well, I certainly--as the son of a combat 
soldier from Vietnam I understand it probably as well as any 
dependent. Dr. Stone and I will be reviewing that, as well as 
several other studies that are tangential to your legislation, 
in the coming weeks.
    Senator Blumenthal. While you are reviewing that, maybe you 
could also indicate why you have not categorized as a 
presumptive disability three--several conditions that are 
classified by the National Academy of Sciences in that regard. 
I know that ordinarily you follow their recommendations. In 
2016, the National Academies recommended adding four new 
conditions to the Agent Orange presumptive disability list, 
including bladder cancer, hypothyroidism, hypertension, and 
Parkinson-like symptoms. Despite that scientific backing, you 
have not added those conditions.
    Dr. Stone. Sir, we and the Secretary have spoken previously 
about this, and we are waiting for these two additional studies 
to finish, that are broad studies of death rates as well as the 
health status of the Vietnam veteran before we come to 
agreement on that. We have talked to the National Academy of 
Sciences and looked at the statistical variance that they have, 
and frankly, I am not as convinced as the National Academy of 
Sciences is. But we will defer to those two studies and then 
make recommendations to the Secretary.
    Secretary Wilkie. Mr. Chairman, if you would indulge me to 
finish the original question Senator Blumenthal asked about the 
7 percent increase and why I was questioning the 
interpretation. We have 9.5 million veterans in our system. We 
have had 12,300 infected, mercifully, an incredibly low number. 
Of those 12,300, well over 9,000 have completely recovered. So 
a 7 percent increase--and why I was challenging the 
interpretation--sounds like there has been an explosion in 
terms of the number of veterans infected. It has been 
mercifully low if you look at the entirety of the community we 
serve.
    Senator Blumenthal. My time has expired. I thank you, Mr. 
Chairman.
    Chairman Moran. You are one of my Ranking Members, as is 
Senator Tester, and you almost got as much overtime as he did.
    Senator Rounds?

                      SENATOR MIKE ROUNDS

    Senator Blumenthal. Thank you.
    Senator Rounds. Thank you, Mr. Chairman. Mr. Secretary, 
gentlemen, thank you all for your service to our country.
    Mr. Secretary, in a call we had with you just a few weeks 
ago you were confident that any overdue provider claims were 
old Choice-era claims, but earlier this week, in preparation 
for this hearing, leaders from your department told members' 
staff that there are aged MISSION Act claims among the VA's 
current backlog. This does line up with your written testimony 
today, page six of your testimony, in which you have indicated, 
and I will quote, ``The VA realizes it needs to do a better job 
of paying claims from community providers.'' It is certainly 
reflective of what my experience is and what I continue to hear 
from my providers in South Dakota.
    Looking at your request for $18.5 billion for community 
care for Fiscal Year 2021, what I would like to know is, is 
this enough to make sure your department can do what needs to 
be done to get our community providers paid in the time that 
the law currently requires? Just as an example, is this enough 
money to get the eCams up and running at 100 percent capacity? 
I think according to discussions with staff earlier this week 
it is running at about 33 percent capacity. Our expectation, 
based on a February discussion, was that it would be up and 
running by about May 4th or so. So we have got a ways to go 
yet.
    Is this enough money to clear your backlog of the 2 million 
claims, and help the VAs transition out of the direct payer 
role altogether?
    Secretary Wilkie. Before Dr. Stone answers the way forward 
I will say, and I have been in South Dakota twice in the last 6 
months, since MISSION kicked in on June 6th of last year we 
have processed 22 million claims and disbursed $6.9 billion. I 
can say that with the coming of new management to our regions 
right now the number is at 57 percent of all claims are now 
paid within 7 days. That still means we have a backlog, but it 
is moving in the right direction.
    Dr. Stone. Senator, the last time you and I talked about 
this I had between 3.2 and 3.4 million claims in backlog. That 
number is now down to 1.9 million, and we disbursed over $1.3 
billion in payments last month, in the month of May. I think we 
are going in the right direction. eCams has not come on board 
at the rapidity at which we wanted, although it is running 
well. What we are looking for is auto-adjudication, where it, 
on an automatic basis, adjudicates a claim. That, you are 
exactly correct, it's not at the level it should be. I have 
been reassured by Dr. Mathews and her team, who are running 
Community Care that in the next month we will take a dramatic 
upturn in the amount of auto-adjudication that is driving this 
down.
    Now the first question you asked was, is $18 billion going 
to be enough? It looks like it. It looks like even with the 
growth in the dependents and the unknown that we have as we go 
into a potential second wave, or even third wave of this 
pandemic, we will be Ok with that number.
    So I am confident in that number. What I am still not happy 
with is the amount of backlog claims. We must be a good partner 
to every provider or we are not going to keep the 880,000 
providers who have pledged their commitment to Americans 
veterans.
    Senator Rounds. Thank you, and I think that is really the 
crux of it for us, is if we are not paying these providers in a 
timely fashion. A lot of them do not have real deep pockets, 
and if they cannot get paid to continue to pay their bills, 
then at some point--and so far none of them have declined the 
veterans, but we most certainly do not want to get them to the 
position where they feel that they may.
    Dr. Stone. Senator, they have not, and we are keenly aware 
that the American health care systems in the private space are 
losing $50 billion each year, and we have worked really hard to 
make sure that we can do our part to maintain their liquidity.
    Senator Rounds. Great. Thank you.
    Mr. Secretary, can you give me a walk-through of the 
decision to decrease your requested funding for the VA's Rural 
Health Initiative this year by 10 percent, from $300 million in 
Fiscal Year 2020 to $270 million in Fiscal Year 2021? It seems 
that with your emphasis--and I know you have been to South 
Dakota twice and you have talked about what we need to do to 
work with IHS in our rural areas. But to see that decrease kind 
of caught me by surprise.
    Secretary Wilkie. I will go back and look. I think it is 
because of the emphasis on telehealth, which has cut down on 
costs. But I will give you a line-by-line breakdown of why that 
happened.
    I would also add--and this is a parochial matter for you--I 
was on KELO yesterday, and I wanted you to know that I renewed 
the commitment to Hot Springs on South Dakota television, and 
my staff has been in contact with your staff to make sure that 
when we deal with that record of decision it is not only 
airtight, it is also in line with the legislation that you put 
in the appropriations bill.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Chairman Moran. Senator Rounds, thank you very much. I 
meant to mention after Senator Blumenthal's questions that this 
Committee will have a hearing next Tuesday. He was asking the 
Secretary--Senator Blumenthal was asking the Secretary about 
PPE. Our Committee will meet next Tuesday afternoon to have a 
hearing. The title of the--the subject is ``Building a More 
Resilient VA Supply Chain.'' So we are going to spend some more 
time with the Department in regard to this topic.
    Now Senator Hirono.

                      SENATOR MAZIE HIRONO

    Senator Hirono. Thank you very much, Mr. Chairman. What is 
happening in our country right now is a tremendous 
acknowledgment of the disparities that have existed in our 
country for far too long. The pandemic has further exposed the 
disproportionate access people of color have to critical 
services, like health care, housing, education, social 
supports, and protests are happening all over the world, in all 
of our country, including, of course, in Hawaii, in response to 
violence against black Americans.
    We are at a time in our country when we cannot just go back 
to doing things as usual, and if ever there was a time to have 
some kind of reckoning to move us forward, this is it.
    When the top leadership of our agencies does not reflect 
the people they serve, that can have real lasting consequences. 
So, Mr. Secretary, I would like to ask you, would you agree 
that diversity in those who are making decisions that impact 
the lives of all the diverse group of veterans that you serve, 
is not diversity in leadership a good thing in order to provide 
truly equitable services to veterans?
    Secretary Wilkie. Senator, I will be careful in my answer. 
I grew up in this world. I think you will find that the Armed 
Forces of the United States have been the great leveler when it 
comes to equal treatment. I have surrounded myself with people 
who have the same experiences. Everyone at this table has 
served in uniform. We understand the culture and we speak the 
language. My deputy, she graduated from--she graduated from the 
United States Air Force Academy. Our Assistant Secretary for 
Legislative Affairs, who is sitting behind me, I actually 
served under in the Air Force.
    We have one goal. It does not matter where we come from, we 
have all served. I think for us, at VA, that is the most 
important thing. I would also add what I said earlier. We are 
the only health care system, Senator--and you and I have talked 
about this--we follow gender disparities. We follow racial 
disparities. We have now brought up, just in the last few 
years, the percentage of veterans who are women to 42 percent. 
The percentage of veterans, eligible veterans, who are male are 
49 percent. So we are moving up.
    Just a few years ago there were only a few, less than 
200,000 women in the system. Today there are 500,000. So I 
think we have----
    Senator Hirono. I acknowledge that. What I am talking about 
are the people who are making decisions on behalf of the 
diverse group of veterans that you now have, and many of them 
are women. We are already acknowledging that they may have 
different kinds of health care and other kinds of needs, and 
therefore you are programmatically seeking to address those. 
But it is really the people who are making decisions.
    Let's face it. I am not disparaging anybody who is in the 
military, by the way, and there should be an acknowledgment 
that we all have implicit bias. No matter how fair we may all 
think we are, that unless you walk in the shoes of somebody 
else then it is--it is not the kind of thing where we can, ``Oh 
yes, I know what you feel. I know what you are thinking.''
    Secretary Wilkie. My, my----
    Senator Hirono. So this is why I would say, diversity in 
leadership is important.
    I do have a question for you before I run out of time.
    Secretary Wilkie. I will just say my deputy, she served 30 
years in the Air Force, and I think that is a testament to how 
far VA has advanced along the lines, that you----
    Senator Hirono. I am all for women in decisionmaking, but 
we all know within the military there are still major issues 
relating to sexual assault and sexual harassment, but that is a 
whole other matter. We also know there are disparities within 
the VA, and I am glad that you acknowledge it and you will, I 
hope, do something about it.
    But do you do implicit bias training within your leadership 
group in the VA?
    Secretary Wilkie. Yes, Senator, we do.
    Senator Hirono. Good to know. For years, I have brought up 
the Advanced Leeward Outpatient Health Care Access Project at 
hearings and meetings with VA leadership. The project was 
scheduled to be completed by Fiscal Year 2020, but has 
encountered multiple delays. Earlier this year, the VA said 
that this lease award was expected by mid-May, but in the 
recent weeks we have learned that that has been delayed due to 
COVID-19. Now a lease award is not expected until mid-August, 
and the project is not expected to be completed until spring of 
2023.
    You can see where the veterans are very concerned that this 
project keeps being delayed. Can you explain to me what exactly 
is causing yet another delay and how VA is working to address 
it and provide a--could you provide a detailed timeline for the 
ALOHA project so that I can let the veterans in Hawaii know 
when they can expect this facility to be built?
    Secretary Wilkie. Yes, Senator, and you know I have been in 
Hawaii several times, and the ALOHA Clinic is a classic example 
of what happens when there are too many layers of Federal 
bureaucracy. Some not attached to the VA gets involved in 
construction projects. This is a problem that I will bring to 
the Chairman, and I think I have mentioned it to Senator Tester 
as well. The way CBO scores these projects is not realistic. 
The other thing that I will bring to the Chairman is that for 
projects like the ALOHA Clinic in Hawaii, which have stopped 
and started because of CBO and GSA bureaucracy, we want to give 
more flexibility to the Department and to the leaders on the 
ground to be able to engage in these contracts, contracts that 
reflect the situation in Hawaii, and not a one size fits all.
    So I take your point. You are absolutely right, and we are 
working on providing this Committee with hopefully some 
legislative solutions so what happens in Hawaii does not happen 
again.
    Senator Hirono. Thank you so much for acknowledging that, 
and of course things are much more expensive in Hawaii, and one 
size fits all where the costs are not fixed do not do it for us 
in Hawaii. So I will do whatever I can to assist you, Mr. 
Secretary.
    I am glad that one of the----
    Chairman Moran. Senator, your time has expired.
    Senator Hirono. Oh, I am sorry. I will send more questions 
for the record. Thank you, Mr. Secretary.
    Chairman Moran. Thank you, Senator Hirono. The announcement 
about the vote has been delayed 10 minutes, so it is now at 
4:40. So we have--I do not know what we have.
    Senator Tillis?

                      SENATOR THOM TILLIS

    Senator Tillis. Just enough time for my round.
    Chairman Moran. Apparently you are the lucky one.
    Senator Tillis. Thank you, Mr. Chairman. Senator Tester, it 
is great to see you have found your flat top again. It is a 
good luck.
    Mr. Secretary and for all the witnesses, I want to go back 
on--I have completed 45 telephone town halls, updating people 
in North Carolina on COVID, and one thing it has required me to 
do is to take a look at the numbers and not view any one number 
in a vacuum. I am sure that you guys are taking a look at any 
increase in cases, you are adjusting that, you are looking at 
the rate of doubling, you are looking at how you adjust that 
for the rate of testing, and those numbers.
    So Dr. Stone, in your opinion, do you believe--because this 
hearing people could leave saying that the VA admitted there is 
a 7 percent spike. But are you looking at all those numbers, 
and in that context doing it as a manageable number that is 
within your expectations?
    Dr. Stone. Yes, sir. Early in this we were dealing with 
very rapid doubling rates. We are now dealing--your State has 
had gradually increasing numbers, but with a doubling rate that 
extends out to between 30 and 40 days.
    Senator Tillis. Right, and early in the crisis we were in 
5-and 10-day increments.
    Dr. Stone. We were in 1-and 3-day doublings. So yes, sir.
    Senator Tillis. So I just wanted to level-set that. Before 
anyone takes any one number they really need to understand the 
numbers if they want to do it justice----
    Dr. Stone. Yes, sir, and----
    Senator Tillis [continuing]. on the trends. Because clearly 
you would be surging if you had a concern.
    Secretary Wilkie. Senator Tillis, and I was not trying to 
be disrespectful, but--and you know that I went into the law 
because I could not do math.
    Senator Tillis. Yep.
    Secretary Wilkie. But when we have an infection rate that 
is as low as ours, a 7 percent increase is in the tens or 
maybe, at most, the dozens. That does not mean it is not 
serious, but it is not a crisis. I think we have shown since 
this began that we have been able to manage, and our veterans 
have responded. We have set out well over 50 million individual 
communications to veterans and families. We have warned them of 
what was out there. We have given them instructions and they 
have responded magnificently, which is why I think the numbers 
are as low as they are.
    Senator Tillis. Thank you. Jon, you mentioned the need for 
reprogramming some of the additional dollars. I think you have 
been good stewards. I think you would have spent all $18 
billion if you thought it was necessary. You are demonstrating 
good stewardship on the money that was allocated under the 
CARES Act.
    I would expect--I know IT is something that you mentioned--
I would expect that as you scale up telehealth, as maybe you 
scale up capacity for some of the underlying information 
systems, that those are some areas where you need flexibility 
to deploy resources. We need to make sure that we get that 
information.
    I also think that--I am looking ahead to a surge. If we 
take a look at the breakdown of patients, particularly acute 
cases and deaths, it is clearly in congregate care facilities 
and populations where we have higher risk categories, over age 
65, underlying health conditions, et cetera.
    We are going to have another wave. The question is how many 
therapeutics do we have and what have we learned in terms of 
protocols to reduce the spread. But also I think, and 
particularly among the senior veteran populations and 
congregate care facilities writ large, we should already be 
creating a mentality for a posture that we take before we hear 
of the first case in November or December. Are you all taking 
those steps and trying to inculcate that as a part of your 
culture?
    Secretary Wilkie. So we have, and the nursing home 
community is the example. We serve a little under 8,000 
veterans in 134 nursing homes. We put in emergency protocols 
very early on in this. We test everyone in the nursing home. We 
also test all of the employees. We stopped visitors and 
families--a very difficult decision, because more than half of 
those veterans are from Korea and World War II.
    Senator Tillis. Yes, and Secretary Wilkie, because I want 
to ask an open-ended question and finish before the red light. 
I think it is just important. You know how heartbreaking it is 
when you want to go visit someone in these facilities. I think 
if we set the expectation now, so that they just know that that 
is standard operating practice, it is going to be easier to 
manage that and make it less likely that we see anything 
approaching it. I do not believe we will see anything 
approaching what we have in this wave.
    The last question, and it is really maybe something for you 
all to think about. I have had this discussion with DoD. As you 
are looking at deadlines and you are looking at other 
requirements Congress has placed on you, that you could 
rightfully assert that maybe you need a little bit more time to 
get certain things done--it could be projects, it could be 
reports, it could be any number of other things---I hope that 
you will report back to us and let us know, to the extent that 
that is going to require statutory action. I think you would 
have a rational basis for knowing what those are.
    Offline we will talk about the electronic health record 
implementation. I know it was delayed somewhat. I would be 
interested in knowing whether or not there are resources that 
we could put in so that we can continue it maybe through tele-
implementation and a number of other things. I know the 
platform providers implement it in the private sector.
    Thank you.
    Chairman Moran. Thank you, Senator Tillis. Senator Manchin.

                      SENATOR JOE MANCHIN

    Senator Manchin. Thank you, Mr. Chairman. I thank all of 
you for being here before us today.
    First of all, I am just going to take a moment to thank all 
of the Veterans Affairs employees that we have in our State, 
and that you have around the country, because they have been 
stalwarts. They have been on the front line there and they have 
done a great job. They really have.
    My concern has been, and I think Secretary Wilkie and I 
spoke about this, the testing. Veterans are having a hard time. 
They are confused about the testing. They are told they have to 
pay for it, and that it has been, you know, pre-approved, and 
going through all the red tape. Have you been able, Dr. Stone, 
maybe to work through that, that clarifies this for them, to 
make sure that our veterans can get tested if needed?
    Dr. Stone. Sir, I appreciate your advocacy for this, and 
you and I have talked about it. Where we are having trouble is 
this drive-through testing. When the drive-through testing is 
being done by somebody not enrolled in our system is where we 
are having trouble with it. What we would like to get, and what 
we have reached out to do is try and look at every drive-
through testing, any place we can find it, and try to enroll 
those health care systems in this.
    Unfortunately, some of them----
    Senator Manchin. Is there something we can do to help you? 
Is there anything that we can do legislatively, or something 
through our office officially to help you?
    Dr. Stone. Yes. I think that we will work with your staff 
on it. Right now Community Care believed that they were well on 
their way to working their way through this, to make sure that 
there was no bill sent out to any veteran. I can reassure you 
that within our system there have been no bills sent out for 
COVID testing, and if there is we will reconcile it.
    Senator Manchin. Okay. Well also--and, Mr. Chairman, you 
have said that the PPE, we are going to be doing that next 
week?
    Chairman Moran. I am sorry. Yes.
    Senator Manchin. The PPE? Because I know--we have put 
nearly $20 billion in that in order to train, so we will get an 
accounting. There is no use for me to ask that question if you 
are going to get back into that next week.
    Chairman Moran. We will.
    Senator Manchin. Sir, and Dr. Stone, on the VA in 
Clarksburg, 2 years. The rumors going around now are just 
unbelievable in the local circles, about even the person of 
interest maybe still working, or being employed, or coming back 
as a contractor. Have you been----
    Dr. Stone. Sir, I can reassure you, as of a discussion 
yesterday, that is absolutely untrue.
    Senator Manchin. Well, I think it is too. It is a vicious 
rumor going around that is hurting an awful lot of families. 
But the most important thing is the 2-years. Do you see any end 
in sight?
    Dr. Stone. Sir, the answer to that question has to be done 
by the IG and the Justice Department.
    Secretary Wilkie. Senator, I have expressed my frustration 
with this. You and I talked, and Senator Capito was on the 
phone. This investigation began before I was Secretary.
    Senator Manchin. Right.
    Secretary Wilkie. That is a disservice to the people of 
West Virginia.
    Senator Manchin. It is just--I cannot explain it. I mean, 
you can imagine what the families are going through. Why would 
you put anybody through this? I know you are not 
intentionally--I know that, Secretary Wilkie, you could not 
believe either, the insensitivity of what is going on. But we 
have got to get an answer. I am going to go, I think, to 
Attorney General Barr. I have got to go to Attorney General 
Barr. I have gone there before but now it is urgent now, 2 
years. Now with these rumors starting to creep up, you 
understand the whole uncertainty of what is going on and these 
people being left in limbo like that. It is just-----
    Secretary Wilkie. Sir, this is a disservice to every 
veteran in that community, and as you know, this is a small 
community. These employees have done a great job of cooperating 
every step of the way, and we look forward to resolution.
    Senator Manchin. Anything you can do to help us we 
appreciate.
    Secretary Wilkie. Thank you.
    Senator Manchin. Thank you.
    Chairman Moran. The next senator--I think we only have 
Senator Sinema left, and she is to call in at 4:40, which is 
now. Senator Sinema, are you available?
    [Pause.]
    Chairman Moran. Let me ask a question then, Mr. Secretary, 
which I had intended to ask at the end of the hearing. I was 
caught--my attention was caught by the two questions by both a 
Republican and Democrat about testing and about the 7 percent 
increase. I want to make sure I understand what that reflects.
    My assumption is that as more people are tested we are 
going to see more positive numbers. Perhaps this is a question 
for Dr. Stone, but what is it that we should--what---if 
something happens, what should we be concerned about? What is 
the standard by which it raises a concern or a significant 
challenge for the VA, based upon its numbers, in caring for 
veterans?
    Dr. Stone. So what you should be concerned about in a 
community is the prevalence of the disease. We began this whole 
thing when we built the budget for this, anticipating that 2 to 
3 percent of the population would be infected. We are dealing 
with a fraction of that, frankly. We are dealing with a tenth 
of that.
    Second, what VA must be concerned about is the ability to 
take care of sick people. About 20 percent of the positive are 
really sick, and do we have enough beds, do we have enough 
equipment, do we have enough personnel to care for them? Hence, 
the reconfiguration of the VA's delivery system to grow by 
almost 4,000 beds as we went through this, and the hiring of 
massive numbers of people, and the reconfiguration and 
retraining of ambulatory nurses and providers to provide care 
and support for the less ill, so our critical care providers 
can care for that.
    The VA is well positioned to remain the backstop of the 
American health care system and to fulfill the mission that the 
Secretary gave us and that you all expect of us. At this time, 
as we enter this, I am at 37 percent on our ICU occupancy, 
meaning that two-thirds of our ICU beds are now empty today, 
across the system. Second, we are at about 53 percent occupancy 
on our medical-surgical beds. Those are the key questions that 
you want to know as we walk through.
    Now what we have seen across this Nation is this slow 
background of cases, not in rapid spikes like we saw earlier in 
the disease, in late February and early March, where we saw 
these huge spikes. We have seen this slow background. We 
anticipate having about 600 patients as inpatients for COVID 
right through the fall.
    The question will be, will this repeat the activity of 
summer to fall 1918, where wave two is much more malignant, a 
much tougher disease, so that wave two really resulted in 
dramatic deaths in late 1918 and in the early winter of 1919, 
January, February.
    Chairman Moran. Dr. Stone, what does medical scientific 
evidence have to say about that at this point? Anything?
    Dr. Stone. At this time we have no idea. But what I think 
your expectation of us should be, and I know what the 
Secretary's expectation of me and my leaders is to build a 
system that can appropriately backstop.
    Secretary Wilkie. Mr. Chairman, I mentioned that we started 
preparing for this early on. We have done things like purchase 
mobile hospitals that we did not have to deploy but they are 
ready. I also mentioned the creation of a military-like depot 
system.
    The other part of that is that I signed a memorandum of 
agreement with the Defense Logistics Agency so that we are 
joined at the hip with them and their computerized systems so 
that VA is no longer the ad hoc system that it has been. The 
year that I became Secretary there were over 4 million credit 
card transactions, buying everything from tongue depressors to 
radiological equipment. These reforms go a long way to 
eliminating that and making us better prepared for what may 
come in the fall.
    Chairman Moran. Thank you, Mr. Secretary. Thank you, Dr. 
Stone. I am going to turn to Senator Tester for a second 
question, and then Senator Sinema is joining us now.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman. A couple of 
things, and these could be really quick, guys. But on masks I 
know there have been multiple versions of guidances put out on 
masks about how they are to be used, if they are to be reused, 
all that stuff. Have you guys been able to put anything in 
writing, to direct the staff so they know what the expectations 
are on the N95s?
    Dr. Stone. Yes, sir. The guidance you reflect occurred on 
the 7th of April, and then when we went to a crisis mode, and 
then we went to contingency mode on the 14th or 15th of April, 
and I will get you the exact date. So it was only for 1 week in 
this that we went to crisis mode on utilization, and we remain 
at the guidance that was given on the 14th or 15th of April, 
which provides one mask per day, per patient that needs an N95, 
which is those employees in direct contact with COVID patients.
    Senator Tester. Okay. That is good. I mean, I think that 
there is some confusion out there, but if you guys got it out 
and you field it, that information is flowed to the proper 
sources, that is all you can ask for.
    Electronic health records. I do not really want to talk 
about this, but I have got to.
    Secretary Wilkie. Well, I want to talk about it.
    Senator Tester. Well, I mean, here is the deal. It seems 
like every position I have ever been in in government, an 
elected position, over the last 20 years, has dealt with a 
fiasco when it comes to programming. We have spent about $2.5 
billion so far, and I think--and correct me if I am wrong, 
Secretary Wilkie--there is a request for about $2.6 billion for 
electronic health records. I think everybody around the table, 
everybody on this Committee understands that this is important 
or we would not be allocating the money and we would not be 
pushing to get it done.
    I guess the question is, and I know you have been impacted 
by COVID, but what have we gotten done so far? Have we got 
value for the money we have spent? What kind of timeline are we 
on here to get this up? Is it going to be user friendly enough, 
where we do not have to send doctors and nurses to training 
for, you know, a month, to be able to get them to be able to 
understand how to use the damn record when they should be 
treating patients?
    Secretary Wilkie. So this is a good-news story. I mentioned 
in my opening Statement that I believe VA has demonstrated that 
it is the most agile of the Federal departments. We have been 
working EHRM even this pandemic, and on April 18th we were able 
to show that the Joint Health Information Exchange works. We 
talk to DoD. DoD talks to us. The private sector can work the 
records.
    We are going to be going live on the scheduling portion in 
Columbus, Ohio, and then I expect that Spokane and then later 
Seattle will be up and running sometime later this year.
    You are correct that we took practitioners off of the 
program to put them on the front lines, but we are in a 
position that I do not think a lot of people thought we would 
be in. As a matter of fact, all 73 interfaces between DoD, VA, 
and the private sector now work, and I am confident that we 
have a good-news story here. It will revolutionize now. The 
increase that you are talking about is to spread--and it is 
something that is near and dear to your heart--the 
infrastructure remodeling of our institutions so that they can 
handle the electronics required for this system. As you know, 
particularly out West, many of our facilities have buildings 
that date back to the 19th century. That was certainly the case 
in Washington State, where we were testing this.
    We are in a much better position than we were when I spoke 
to this Committee last.
    Chairman Moran. Senator Tester, Senator Sinema is 
available, and for us to make certain she has a chance to ask 
her question before we need to conclude for the vote, I am 
going to recognize her now.

                     SENATOR KYRSTEN SINEMA

    Senator Sinema. Thank you so much, Mr. Chairman, and thanks 
to the Committee for their patience with our technical issues. 
So thank you both for holding this hearing, Chairman Moran and 
Ranking Member Tester, and thanks to all our witnesses for 
being here today.
    You know, organizations in Arizona supporting the homeless 
veteran community have continued to express concerns for the 
safety of those they serve and the staff that they employ. They 
also do not feel the VA is providing the necessary assistance 
to this vulnerable population during the coronavirus pandemic. 
One key reason is VA does not have a national coordinated plan 
to support homeless veterans. A national plan should include 
testing strategies for homeless populations, access to PPE for 
all staff working with these communities and plans to care for 
veterans who test positive for the coronavirus.
    I know the VA is in need of additional flexibilities to 
fully support the homeless veteran community during this time, 
and I am proud to work with Senator Sullivan to introduce our 
Homeless Veteran Coronavirus Response Act of 2020, which will 
largely address the VA's needs.
    But Secretary Wilkie, as we work to increase the resources 
and flexibilities, the VA has to support homeless veterans, it 
is important for VA to lead on a national strategy, support the 
homeless veteran community, in collaboration with the 
organizations who provide direct services to the community.
    What do you need to do this, and why has it not been done 
thus far?
    Secretary Wilkie. Well, Senator, thank you, and I know that 
this Committee and you and Senator Sullivan have been working 
on this, and that is--your efforts are designed to give us more 
flexibility. I can tell you what we have been doing during this 
epidemic. We have used $300 million in additional funding to 
augment the three major programs that we have. First is the 
support to--supportive services for veterans and families, to 
increase the number of vouchers available for transition and 
housing. We have tripled the per diem amounts so that we are 
now addressing the basic food needs of our veterans, and we 
have augmented our emergency shelter programs.
    In hot spots like Los Angeles, we have been out actively 
working with the community to bring veterans inside the fence. 
Regardless of whether they want to partake of our health care, 
getting them inside the fence at least allows them access to 
the food and to whatever services they will agree to have. But 
that is to protect them.
    I will be announcing later this month our national roadmap 
on suicide prevention. As I said when I first addressed this 
with you, if it was just a roadmap looking at the last tragic 
act in a veteran's life it would not be worth much. So we are 
taking a broad look at not only mental health and addiction but 
also homelessness, the three things that, more often than not, 
those three areas that the Nation as a whole has ignored.
    I will let Dr. Stone answer any of the medical questions 
that you have raised.
    Dr. Stone. Senator, I appreciate your advocacy for this, 
and it is one of the areas that we are deeply concern. I talked 
earlier, as did the Secretary, about the financial instability 
and the risks to this population.
    We have added $300 million through the supplemental funding 
to our support for homelessness. As you know that is a $1.83 
billion program that we have asked to increase to $1.9 billion 
in 2021. Part of that is we have increased, by 70 percent, in 
the supportive services for veteran families, about $202 
million that we have added to the $300 million that was already 
there. We have also added $88 million in the grant per diem. 
That is for emergency housing, primarily in hotels, to get 
veterans off the street, especially so that we can help manage 
the potential illnesses in that population.
    As you know, in certain high-cost areas we were very 
gratified that HUD was given enhanced dollars to raise the 
amount for the HUD VASH vouchers. We have also added $10 
million more to ensure that there is adequate personnel to work 
those.
    But we continue to be pleased with your advocacy for this 
population as we work our way through this.
    Senator Sinema. Just a quick followup, because I know that 
my time is expiring, Mr. Chairman, and that is I would love to 
circle back and talk more about this. As we know, most of the 
efforts providing direct services to homeless veterans happens 
at the local level, outside of the VA system. I think that is 
what is leading this to be a somewhat disjointed operation 
throughout the country, and again why I am advocating so 
strongly for us to have a national strategy where we can work 
with our local partners outside of the VA facilities to address 
this pandemic.
    Thank you, Mr. Chairman.
    Secretary Wilkie. Um----
    Senator Sinema. I appreciate your time.
    Chairman Moran. Thank you, Senator Sinema.
    Secretary Wilkie. Senator, let me indulge the Chairman's 
patience. I think that is one of the reasons why the Chairman 
has introduced the legislation that is still working its way 
through something that we support, that we have those more 
robust relationships with the States and localities, and 
charities, nongovernmental organizations, so that we can get 
into those places that VA is not.
    I cannot thank the Committee enough for taking that idea 
that you have just expressed and putting it into action. I 
think this Committee has taken a huge step forward.
    Senator Sinema. Thank you. Thank you, Mr. Chairman.
    Chairman Moran. Thank you, Senator Sinema. I am going to 
ask just two quick questions, Mr. Secretary, and then I am 
going to see if Senator Tester has any quick questions, and we 
do then need to conclude our hearing. Two more questions 
related to community care, Mr. Secretary.
    Your staff shared with my staff that there were 173,721 
authorizations, excluding emergency and urgent care, were 
written for community care from March 24 to April 29, 2020, so 
while we have been through the pandemic. Could you tell me how 
many authorizations of community care were provided in that 
same timeframe a year ago, so I can make a comparison?
    Secretary Wilkie. I am going to have to take that for the 
record, and I believe we are getting that information to your 
staff.
    Chairman Moran. Thank you.
    Secretary Wilkie. Yes, sir.
    Chairman Moran. Second, your reopening plan mentions that 
the VA will schedule community care and virtual care 
appointments where, quote, ``clinically appropriate.'' I want 
to make certain that the veteran is front and center and that 
``clinically appropriate'' is not a phrase that will be used to 
deny community care as appropriate, which, in most instances, 
is when it is in the best interest of the veteran.
    Secretary Wilkie. Yes, sir. Your interpretation is my 
interpretation. I would also add that what I have seen during 
this epidemic with veterans is similar to what practitioners 
have seen across the country. Most instances of veterans not 
going into the community have been on their wishes, and we are 
going to do everything we can to ramp this thing up back to 
where it was. Sixty percent is not good enough. It is not in 
line with the forums that you have championed and the forums 
that I believe in.
    Chairman Moran. So ``clinically appropriate'' is not an 
impediment to MISSION and CARE Act in the community?
    Secretary Wilkie. No, sir.
    Chairman Moran. Thank you. Senator Tester?
    Senator Tester. Thank you, Mr. Chairman. Very quickly, the 
Chairman mentioned this in his opening remarks, and it has been 
alluded to throughout this hearing. Because especially with 
COVID-19 I think that the challenges around mental health are 
going to increase. I appreciate the work that you and your 
staff have done with our staffs to make sure that the John 
Scott Hannon bill is ready for prime time. I would encourage 
you to keep that up, and I will encourage my side to keep that 
up, because I think this bill is important. I do not think that 
Senator Moran and myself would have introduced it if we did not 
think that veteran mental health is a problem, and I do not 
think you guys see it any differently either. We have just got 
to get this going, because I am not sure that we have got our 
arms around it yet. So we need to use every tool we have 
available.
    If you would like to comment to that, you can, but I would 
just like to say I appreciate working on it, and I think we 
need to get it done. It did pass the Committee unanimously, and 
you know the differences of the political spectrum on this 
Committee are wide. We all agreed that this was the right thing 
to do.
    The last thing I would say, in closing, and thank you, Mr. 
Chairman, is that, you know, you guys, I have been looking at 
you on TV for the last 2 hours, and I would just tell you that 
if you decide to give up the VA, all four of you could be news 
announcers on your local TV stations.
    Secretary Wilkie. Thank you, sir.
    Chairman Moran. Senator Tester, I do not know whether there 
was a compliment in there. I was distracted. But I agree----
    Senator Tester. They look good.
    Chairman Moran. But I will assume there was a compliment 
there.
    Secretary Wilkie. I agree with your Statement.
    Senator Tester. They look really good. Even on high def 
they look good.
    Secretary Wilkie. I agree with your sentiment about the 
legislation. It is vital.
    Chairman Moran. Senator Tester, there are two bills pending 
unanimous consent request in the Senate. I was informed today 
that I think one of them is ready. The other, it is cleared on 
our side and not yours. If you would check with your staff. 
This is something that you and I both support and something 
that the Department has been asking for.
    Senator Tester. I am on it, Jerry. Thank you.
    Chairman Moran. Thanks very much, Jon.
    Mr. Secretary, I always give witnesses in front of my 
committees the opportunity to clarify, to retract, make any 
corrections of something that they said or something that wish 
they had said.
    Secretary Wilkie. I will go back and look, but that is not 
going to stop me from thanking the Committee, as I did at the 
beginning. There is no better committee when it comes to the 
oversight of the Department for which you have responsibility, 
or a more collaborative committee.
    I do want to say one thing. Thousands of VA employees have 
put themselves in harm's way. I think they--well, I do not 
think--they deserve the thanks of the American people. We have 
opened our hospitals. We have sent people into extremely 
dangerous situations. They have responded magnificently. One of 
the things I would add is that we actually have a lower 
absentee rate and a lower leave request rate this year than we 
did last year, because people have responded to the call to 
duty, as they always do, and I am very proud to be part of 
their family. I thank you, sir.
    Chairman Moran. Mr. Secretary, thank you for your presence 
and your team here today. I thought the hearing was valuable 
and I appreciate your testimony and our conversations. I would 
express my gratitude on behalf of all Kansans, on behalf of all 
Americans for the men and women who work at the Department of 
Veterans Affairs, many of them veterans themselves, who arose 
to the cause of caring for their brothers and sisters at the 
Department of Veterans Affairs. We are very grateful for the 
risks they take and the anxiety they and their families must 
have about that service. So thank you for your reiteration of 
that, and I join you in that sentiment.
    Secretary Wilkie. Thank you, sir.
    Chairman Moran. The Disabled American Veterans, the 
Paralyzed Veterans of America, and the Veterans of Foreign Wars 
have each year produced an independent budget based on their 
analysis of the funding needs of the VA. For this hearing we 
asked those VSO partners to submit written testimony on the 
President's budget request for the VA, and they provided 
valuable feedback. They have done so, and without objection I 
will include their written testimony into the record. So 
ordered.
    Chairman Moran. Committee members, you have the opportunity 
to submit for us today additional questions for the witnesses. 
Please do so in the next 5 days. Mr. Secretary, please ask your 
Department to respond as quickly as possible to our Committee's 
further question.
    Secretary Wilkie. Yes, sir.
    Chairman Moran. Without further conversation we are 
adjourned.
    [Whereupon, at 5:02 p.m., the Committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
      

                                  [all]
</pre></body></html>
